                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601
April 27, 2012

Report Number: A-05-11-00045

Ms. Olga Dazzo
Director
Michigan Department of Community Health
Capitol View Building
201 Townsend Street
Lansing, MI 48913

Dear Ms. Dazzo:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Michigan Did Not Perform Eligibility Redeterminations at
Least Every 12 Months for Wayne County Medicaid Beneficiaries. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-11-00045 in all correspondence.

                                             Sincerely,


                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Olga Dazzo


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
 Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





  MICHIGAN DID NOT PERFORM 

ELIGIBILITY REDETERMINATIONS AT 

  LEAST EVERY 12 MONTHS FOR 

    WAYNE COUNTY MEDICAID 

          BENEFICIARIES





                        Daniel R. Levinson

                         Inspector General 


                            April 2012

                          A-05-11-00045 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

The Michigan Department of Community Health (State Medicaid agency) operates the Michigan
Medicaid program. The State Medicaid agency delegated the administration of the Medicaid
application and eligibility process, including the performance of eligibility determinations and
redeterminations, to the Michigan Department of Human Services (State Human Services
agency). The Wayne County Department of Human Services (County Human Services agency)
administers Medicaid beneficiary eligibility on the county level.

Pursuant to Federal and Michigan requirements, Medicaid eligibility redeterminations are
required at least every 12 months with respect to circumstances that may change or when the
State agency has information about anticipated changes in a recipient’s circumstances that may
affect eligibility. Redeterminations are required to ensure that a beneficiary continues to meet
the Medicaid eligibility requirements. The State Medicaid agency must ensure that the required
annual eligibility redeterminations are performed and accurately reflect any changes that may
affect a beneficiary’s eligibility. Pursuant to the Act, Medicaid payments are allowable only for
eligible beneficiaries.

The State Human Services agency’s administrative manual provides that eligibility
redeterminations for Medicaid are required annually. The County Human Services agency
notifies beneficiaries of the need to have their cases redetermined.

OBJECTIVE

Our objective was to determine whether the State Medicaid agency and its agent, the County
Human Services agency, made eligibility redeterminations at least every 12 months for Medicaid
beneficiaries who were continuously enrolled during our audit period.

SUMMARY OF FINDING

The State Medicaid agency and its agent, the County Human Services agency, did not make
eligibility redeterminations at least every 12 months for Medicaid beneficiaries who were
continuously enrolled during our audit period.

From a random sample of 200 Medicaid beneficiaries, the State Medicaid agency performed
eligibility redeterminations within the required 12-month period for 142 beneficiaries. However,

                                                i
the State Medicaid agency made payments to providers on behalf of 58 beneficiaries who were
subject to annual redeterminations, but for whom the County Human Services agency did not
perform eligibility redeterminations within the required 12-month period. The State Medicaid
agency made the payments on behalf of the 58 beneficiaries because it was unaware that the
County Human Services agency did not perform redeterminations at least every 12 months.

Although the County Human Services agency had information for the cases that were due for
redetermination, it did not complete all redeterminations pursuant to Federal and State
requirements. For the period October 1, 2008, through September 30, 2010, we estimate that the
State Medicaid agency was reimbursed for Medicaid services provided to 79,277 beneficiaries
whose eligibility redeterminations were not performed within the required 12-month period.

RECOMMENDATION

We recommend that the State Medicaid agency require the State Human Services agency to
develop a corrective action plan to help ensure the County Human Services agency performs
Medicaid beneficiary eligibility redeterminations at least every 12 months pursuant to Federal
and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency concurred with our
recommendation. The State Human Services agency submitted a corrective action plan to the
State Medicaid agency. The corrective action plan outlines several controls that will help the
local County Human Services offices identify Medicaid beneficiaries in need of annual eligibility
redeterminations. The State Medicaid agency’s comments and the State Human Services
agency’s corrective action plan are included in their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                              Page


INTRODUCTION................................................................................................................1 


          BACKGROUND .......................................................................................................1 

              Michigan Department of Community Health ................................................1 

              Wayne County Department of Human Services ............................................1 

              Federal and State Requirements.....................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ........................................................................................................2 

               Scope..............................................................................................................2 

               Methodology ..................................................................................................2 


FINDING AND RECOMMENDATION...........................................................................3 


          FEDERAL AND STATE REQUIREMENTS...........................................................4 


          BENEFICIARIES WITHOUT MEDICAID ELIGIBILITY 

          REDETERMINATIONS ...........................................................................................4 


          RECOMMENDATION .............................................................................................5                 


          STATE AGENCY COMMENTS..............................................................................5 


APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLING RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Michigan Department of Community Health

The Michigan Department of Community Health (State Medicaid agency) operates the Michigan
Medicaid program. The State Medicaid agency delegated the administration of the Medicaid
application and eligibility process, including the performance of eligibility determinations and
redeterminations, to the Michigan Department of Human Services (State Human Services
agency).

Wayne County Department of Human Services

In Wayne County, the Wayne County Department of Human Services (County Human Services
agency) reviews the beneficiary’s information and determines eligibility. Once eligibility is
established, the State Human Services agency makes the eligibility information available to the
State Medicaid agency so that it can process payments for Medicaid beneficiaries.

Federal and State Requirements

Pursuant to 42 CFR § 435.916, Medicaid eligibility redeterminations are required at least every
12 months with respect to circumstances that may change or when the State agency has
information about anticipated changes in a recipient’s circumstances that may affect eligibility.1
Redeterminations are required to ensure that a beneficiary continues to meet the Medicaid
eligibility requirements. The State Medicaid agency must ensure that the required annual
eligibility redeterminations are performed and accurately reflect any changes that may affect a
beneficiary’s eligibility. Pursuant to the Act, Medicaid payments are allowable only for eligible
beneficiaries.




1
  In a State Medicaid Director letter issued April 7, 2000, CMS instructed States to limit the scope of
redeterminations to information that is necessary to determine ongoing eligibility and that relates to circumstances
that are subject to change, such as income and residency (but not unchanging information such as date of birth or
U.S. citizenship).

                                                          1

The State Human Services agency’s administrative manual provides that eligibility
redeterminations for Medicaid are required annually.2 The County Human Services agency
notifies beneficiaries of the need to have their cases redetermined.

Section 2001(a)(1) of the Affordable Care Act establishes a new eligibility group that all States
participating in Medicaid must cover as of January 2014 for individuals with incomes at or
below 133 percent of the Federal poverty level. The new group fills in the gaps in existing
Medicaid eligibility by making eligible very-low income individuals who are not otherwise
eligible under mandatory eligibility categories. The Congressional Budget Office estimates that
this change will increase Medicaid beneficiaries by 10 to 16 million nationwide between 2014
and 2019.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency and its agent, the County
Human Services agency, made eligibility redeterminations at least every 12 months for Medicaid
beneficiaries who were continuously enrolled during our audit period.

Scope

The scope of our audit included Wayne County, Michigan, beneficiaries who were continuously
enrolled in Medicaid and had received a paid Medicaid service during the 2-year period of
October 1, 2008, through September 30, 2010. We selected a 2-year audit period to ensure that
the beneficiaries we sampled would have been required to have more than one Medicaid
eligibility redetermination during the time.

We did not review the overall internal control structure of the State Medicaid agency, State
Human Services agency, or the County Human Services agency. We limited our internal control
review to obtaining an understanding of the procedures used to perform Medicaid eligibility
redeterminations for Wayne County beneficiaries.

We performed our fieldwork at the County Human Services agency in Detroit, Michigan, during
April 2011.

Methodology

To accomplish our audit objective, we:

    	 obtained a list of 273,370 continuously enrolled Wayne County Medicaid beneficiaries
       who received a paid Medicaid service during the audit period of October 1, 2008, through


2
 Michigan Department of Human Services, Bridges Administrative Manual (BPB 2008-003), BAM 210 at 2
(October 1, 2008).


                                                   2

        September 30, 2010, from the State Medicaid agency’s Medicaid Management
        Information System (MMIS),3

    	 selected a random sample of 200 Wayne County Medicaid beneficiaries and reviewed the
       Medicaid case files and other supporting documentation to determine whether a Medicaid
       eligibility redetermination was required and performed every 12 months during the audit
       period; 4

    	 identified beneficiaries whose required Medicaid eligibility redeterminations were not
       performed within the required 12-month period;

    	 estimated the number of beneficiaries subject to annual Medicaid eligibility 

       redeterminations but for whom the redetermination was not performed within the 

       required 12-month period; and 


    	 requested that the County Human Services agency perform an eligibility determination
       on eight sampled beneficiaries for whom the County Human Services agency did not
       perform eligibility redeterminations during the last year of our audit period.

See Appendix A for our sampling methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

The State Medicaid agency and its agent, the County Human Services agency, did not make
eligibility redeterminations at least every 12 months for Medicaid beneficiaries who were
continuously enrolled during our audit period.

From a random sample of 200 Medicaid beneficiaries, the State Medicaid agency performed
eligibility redeterminations within the required 12-month period for 142 beneficiaries. However,
the State Medicaid agency made payments to providers on behalf of 58 beneficiaries who were
subject to annual redeterminations, but for whom the County Human Services agency did not
perform eligibility redeterminations within the required 12-month period. The State Medicaid
agency made the payments on behalf of the 58 beneficiaries because it was unaware that the
County Human Services agency did not perform redeterminations at least every 12 months.

3
  The MMIS is a mechanized claims processing and information retrieval system that States are required to use to
record Title XIX program and administrative costs and report services to recipients and selected data to CMS.
4
  Under 42 CFR § 435.916(a), the State agency may consider blindness and disability to be continuing until a
provider determines the individual no longer meets the eligibilityrequirement; annual redeterminations would not be
required.

                                                         3

Although the County Human Services agency had information for the cases that were due for
redetermination, it did not complete all redeterminations pursuant to Federal and State
requirements. For the period October 1, 2008, through September 30, 2010, we estimate that the
State Medicaid agency was reimbursed for Medicaid services provided to 79,277 beneficiaries
whose eligibility redeterminations were not performed within the required 12-month period.

FEDERAL AND STATE REQUIREMENTS

Federal regulations (42 CFR § 435.1002(b)) state that Federal financial participation is available
in expenditures for services provided to recipients who were eligible for Medicaid in the month
in which the medical care or services were provided. Pursuant to 42 CFR § 435.916, the State
agency must perform eligibility redeterminations for Medicaid beneficiaries (with certain
exceptions) at least every 12 months with respect to circumstances that may change.

BENEFICIARIES WITHOUT MEDICAID ELIGIBILITY REDETERMINATIONS

From a random sample of 200 Medicaid beneficiaries, the State Medicaid agency made
payments on behalf of 58 beneficiaries whose eligibility redeterminations were not performed
within the required 12-month period.

                                 Summary of Sampled Beneficiaries

                             Number of Months the                    Sampled
                          Redetermination was Overdue5             Beneficiaries

                                           <6                             5

                                        6 to 12                          37

                                          >12                            16
                                         Total                           58

Medicaid application files indicated that the County Human Services agency did not perform
Medicaid eligibility redeterminations for the 58 beneficiaries within the required 12-month
period. The County Human Services agency determined before the end of our fieldwork that 50
of the 58 beneficiaries were eligible for Medicaid at the time of our audit.

For the period October 1, 2008, through September 30, 2010, we estimated that the County
Human Services agency did not perform eligibility redeterminations within the required
12-month period for 79,277 beneficiaries. (See Appendix B for sampling results and estimates.)



5
 The number of months indicates the time from when the 12-month redetermination was supposed to be performed
up until the time when our audit period ended or the date the next redetermination was performed, whichever
occurred first.

                                                     4

Although the County Human Services agency had information for the cases that were due for
redetermination, its offices did not complete all eligibility redeterminations. At the beginning of
our audit period, Michigan's welfare delivery system was spread across several mainframe-based
systems that separately handled eligibility determination, caseload tracking, and payment
disbursement and reporting. The systems required workers to use three separate data systems to
complete the process. These technology limitations put additional demands on a workforce that
was shrinking due to Michigan’s increasing revenue shortage.

Michigan replaced its systems in August 2009 with an integrated eligibility and payment system
to help improve worker efficiency and reduce error rates in eligibility determinations. Although
the new system did improve overall efficiency and automate the client notices for
redeterminations, we found that case workers did not ensure that Medicaid beneficiaries
completed the redetermination process.

We requested that the County Human Services agency determine the current eligibility status for
eight sampled beneficiaries for whom it had not performed eligibility redeterminations within the
required 12-month period and did not have a redetermination performed in the last year of our
audit period. The County Human Services agency determined that two of the eight beneficiaries
were not eligible for Medicaid as of the date of determination, but did not determine whether
these individuals were eligible in the month they received Medicaid services. With the expected
increase in Medicaid beneficiaries based on income level, timely redeterminations will be vital in
ensuring that Medicaid payments are not made for beneficiaries who become ineligible.

RECOMMENDATION

We recommend that the State Medicaid agency require the State Human Services agency to
develop a corrective action plan to help ensure the County Human Services agency performs
Medicaid beneficiary eligibility redeterminations at least every 12 months pursuant to Federal
and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency concurred with our
recommendation. The State Human Services agency submitted a corrective action plan to the
State Medicaid agency. The corrective action plan outlines several controls that will help the
local County Human Services offices identify Medicaid beneficiaries in need of annual eligibility
redeterminations. The State Medicaid agency’s comments and the State Human Services
agency’s corrective action plan are included in their entirety as Appendix C.




                                                 5

APPENDIXES 

                      APPENDIX A: SAMPLING METHODOLOGY 



POPULATION

The population consisted of all Medicaid beneficiaries with concurrent eligibility in Wayne
County, Michigan, during the audit period of October 1, 2008, through September 30, 2010.
Beneficiaries in the population also had at least one Medicaid paid service during the same time
period.

SAMPLING FRAME

The sampling frame consisted of an MS Access database from State agency officials containing
273,370 Medicaid beneficiaries with concurrent eligibility in Wayne County, Michigan, during
the audit period of October 1, 2008, through September 30, 2010. Beneficiaries in the sampling
frame also had at least one Medicaid paid service during the same time period.

SAMPLE UNIT

The sample unit was a Medicaid beneficiary with eligibility in Wayne County, Michigan.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 200 items from our sampling frame.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered our sampling frame from 1 to 273,370. After generating 200 random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total number of Wayne County Medicaid
beneficiaries whose Medicaid eligibility redeterminations were not performed at least every 12
months.
      APPENDIX B: SAMPLING RESULTS AND ESTIMATES



                            Sample Results


                                         Number of
                                    Beneficiaries Without
              Frame      Sample          Eligibility
               Size       Size       Redeterminations


             273,370       200                58



Estimated Number of Beneficiaries Without Eligibility Redeterminations

        (Limits Calculated for a 90-Percent Confidence Interval)


                                     Beneficiaries

                  Point Estimate         79,277

                  Lower Limit            64,884

                  Upper Limit            94,962
                                                                                                        Page 1 of 4


                   APPENDIX C: STATE AGENCY COMMENTS



                                                 ST;\1"I- OF MICHIC ;\,":

FliCK ·SNYOEF; 	                  DEF'/,RTMENT OF COMMUN ITY HEALTH                            OLe:;f.. DAZZO




     March 28,2012



     Ms, Sheri L Fulcher 

     Regional Inspector Genera! for Audit Services 

     Office of Inspector General 

     Office of Audit Services, Region V 

     233 North Michigan, Suite 1360 

     Chicago, Illinois 60601 


     Report Number: A-05-11-00045

     Dear Ms. Fulcher:

     Enclosed is the Michigan Depaliment of Community Health's response to the draft
     report entitled "Michigan Did Not Perform Eligibility Redeterminations at Least Every 12
     Months for Wayne County Medicaid Beneficiaries ."

    We appreciate the opportunity to review and comment on the report before it is
    released. If you have any questions regarding this response , please refer them to
    Pam Myers at (517) 373-1508.




  ;0"i~1  c-­
  ~~~zzo ~r
    Director

    OD:kk

    Enclosure

    cc: 	 Nick Lyon 

           Steve Fitton 

           Tim Becker 

           Pam Myers 





                        CAPITOL VIEW BUILDING. 201 TOWNSEND STREET . LANSING, MICHIGAN 48913
                                            www.michigan.gov 0 5'17·373·3740
                                                                                                                 Page 2 of4




    Michigan Did Not Perfonn Eligibility Redetenninations at Least Every 12 Months 

                      for Wayne County Medicaid Beneficiaries 

                     October 1, 2008 through September 30, 2010 

                                  (A-05-11-00045) 


Finding
The State Medicaid agency and its agent, the County Human Services agency, did not make eligibility
redetem1inations at least every 12 months f()J' Medicaid beneficiaries who were continuously enrolled
during our audit period.


RecommeJ1dations
We recommend that the State Medicaid agency require the State Human Services agen cy to develop a
eonective action plan to help ensure th e Coumy Human Services agency perfonns Medicaid
beneficiary eligibility redeterminations at least every 12 months pursuant                    [0   Federal and State
requirements,


DCBJs&~
The Michigan Depnrtmenl of Community Health (DCB) agrees that eligibility redeterminations were
not always done by their agent at least every 12 months for Medicaid beneficiaries who were
continuously enrolled during the audit period .


The Michigan Department of Buman Services (DHS) submitted a corrective action plan to DeB that
demonstrated how Lh.ey were going to ensure that the Wayne Co unty Departmcm ofHmnan Services
performed eligibility redetenninations in the future at least every 12 months pursuant to Federal and
State requirements. Please see Ule attached corrective action plan letter.




                       CAPITOL VIEW BUILDING. 20 1 TOWNSEND STREET. LANSiNG. MiCHIGAN 48913
            ,.;.,"J                             wNW.michigao.gov· {5(7) 373-3740
                                                                                                     Page 3 of 4



                                          STATE or MICHIGAN
                              DEPARTMENT OF HU MAN SERVICES
                                                LJ\NSI NG
R!Cf< SNYDER                                                                             MAURA D. CORRIGAN
 GDVEF:NO R
                                                                                                 DIRECTOR

                                            March 14, 2012




  Ms. Olga Dazzo, Director
  Michigan Department of Community Health
  Capitol View Building
  201 Townsend Street
  Lansing, Michigan 48913

  Dear Ms. Dazzo:

  Subject: 	 U.S. Department of Health and Human Services, Office of Inspector General
             Draft Audit Report Michigan Did Not Perform Eligibility Redeterminations at Least
             Every 12 Months for Wayne County Medicaid Beneficiaries
             A-05-11-00045
             Michigan Department of Human Services Corrective Action Plan

  The Department of Human Services has addressed the audit finding and taken actions as noted
  below.

  Finding: 	           The State Medicaid agency and its agent, the County Human Services
                       agency, did not make eligibility redeterminations at least every 12 months
                       fo r Medicaid beneficiaries who were continuously enroiled during the audit
                       period.

                       From a random sample of 200 Medicaid beneficiaries, the State Medicaid
                       agency performed eligibility redeterminations within the required 12-month
                       period for 142 beneficiaries. However, the State Medicaid agency made
                       payments to providers on behalf of 58 beneficiaries who were subject to
                       annual redetermi r;ations , but for whom the County Human Services
                       agency did not perform eligibility dete rm inations within the required 12­
                       month period. The State Medicaid agency made the payments on behalf
                       of the 58 beneficiaries because it was unaware that the County Human
                       Services agency did not perform redeterminations every 12 months

                       Although the County Human Services agency had information for the
                       cases that were due for redetermination, it did not complete all
                       redeterminations pursuant to Federal and State requ irements. For the
                       period of October 1,2008, through September 30, 2010 , HHS/OIG
                       estimates the State Medicaid agency was reimbursed for Medicaid
                       services provided to 79,277 beneficiaries whose eligibility
                       redeterminations were not performed within the 12-month period.

  Recommendation: 	 The State Medicaid agency should require the State Human Services
                    agency to develop a corrective action plan to help ensure the County
                    Human Service agency performs Medicaid beneficiary eligibility



                    235 SOUTH GRAND AVENUE. P.O . SOX 30037 . LANSING . MICHiGAN 48909
                                    w\N\.y .michlg an .gov • (517) 37-3·2035
                                                                                                       Page 4 of 4




                       redeterminations at least every 12 months pursuant to Federa! and State
                       requirements.

Corrective Action: 	   The Michigan Department of Human Services (DHS) followed up with the
                       58 cases identified in the finding. Adjustments were made to the benefits
                       based on the redeterminations. Two cases were referred to the DHS
                       Office of the Inspector General for investigation.

                       DHS implemented the Bridges application during the audit period. Bridges
                       is the department's client eligibility system. Policy has been updated to
                       include the Bridges functionality. The policy for redetermination is
                       included in the Bridges Administrative Manual (BAM).

                       BAM 210, Redetermination Cycle, All Types of Assistance:

                       A complete redetermination is required at least every 12 months. Bridges
                       sets the redetermine!ion date according to benefit periods.
                       Redeterminations may be scheduled early or are scheduled less than 12
                       months apart when necessary for:                                .

                          Error-prone cases, in response to supervisory case readings, quality
                          assurance data or quality enhancement data.

                           Medicaid (MA) only, newborn cases must be redetermined no later
                           than the month of the child's first birthday.

                          Transitional Medicaid (TMA) redeterminations must be completed at
                          least 40 days before the end of the 12-month eligibility period to
                          accommodate TMA-Plus (T MAP).

                       BAM 210, Standard of Promptness, All Types of Assistance:

                       Bridges generates a redetermination packet to the client three days prior
                       to the negative action cut-off date in the month before the redetermination
                       is due. This allows time to process the red etermination before the end of
                       the redetermination month.

                       In addition, there are two reports that are generated to assist the local
                       office wiih the redetermination process. [1J The RD-093 Redetermination
                       Report - Worker Listing. This report lists all redeterminations coming due,
                       due and overdue. It also has special indicators that identify Long Term
                       Care ca ses and deductible cases . [2] The RD-210 Transitional Medical
                       Assistance Report is issued 4 months prior to th e redetermination month
                       of the nliA

                       DHS believes controls are in place to mitigate the deficiencies identified in
                       the audit report.

                                     Sincerely,
